        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Costs Incurred by Selected Tribal
Energy Efficiency and Conservation
Block Grant Recipients




OAS-RA-13-28                               July 2013
                                            Department of Energy
                                               Washington, DC 20585
                                                       July 18, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
               AND RENEWABLE ENERGY


FROM:                             Rickey R. Hass
                                  Deputy Inspector General
                                     for Audits and Inspections
                                  Office of Inspector General

SUBJECT:                          INFORMATION: Audit Report on "Costs Incurred by Selected Tribal
                                  Energy Efficiency and Conservation Block Grant Recipients"


BACKGROUND

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Department of
Energy's (Department) Energy Efficiency and Conservation Block Grant (EECBG) Program
received $3.2 billion to improve energy efficiency and reduce energy use and fossil fuel
emissions. The Department's Office of Energy Efficiency and Renewable Energy allocated
about $2.7 billion of the funds using a population-driven formula to over 2,000 entities including
states and territories, cities and counties, and Native American tribes. Approximately $54.8
million of these funds were allocated to 574 individual Native American tribes with awards
ranging from $25,000 to over $6 million.

The Navajo Tribal Utility Authority (NTUA) 1, the Cherokee Nation, Muscogee Creek Nation,
Choctaw Nation of Oklahoma, and Chickasaw Nation received the largest tribal EECBG grants.
The grants totaled $13.9 million and represented approximately 25 percent of the total EECBG
funds awarded to Native American tribes. As of December 31, 2012, approximately $12 million
of these funds had been expended by the five recipients. The Department classified the five
recipients as "at risk" for financial capability based on significant deficiencies and/or material
weaknesses contained in their most current audit reports issued pursuant to Office of
Management and Budget (OMB) Circular A-133. To mitigate its risk, the Department required
the recipients to submit requests for reimbursement to the Department for approval rather than
allowing the tribes to draw cash advances.

We initiated this audit to determine whether costs incurred by selected tribal recipients were
reasonable, allocable and allowable in accordance with applicable laws, regulations and EECBG
Program guidance.

1
    The NTUA, a Navajo Nation Enterprise controlled by the Navajo Nation, was designated as the Agency to administer and
    direct the EECBG award for the Navajo Nation.
RESULTS OF AUDIT

Our review identified $518,994 in questionable costs reimbursed by the Department to two of the
five largest tribal recipients of EECBG funds. Specifically, we found:

   •   NTUA did not follow applicable Federal regulations or have adequate support related to
       allocability and allowability for $517,794 in costs reimbursed by the Department for
       consulting, legal and administrative costs;

   •   The Choctaw Nation of Oklahoma had been reimbursed $1,200 by the Department for
       one duplicative travel expense that was subsequently resolved when we brought the
       matter to its attention; and

   •   One tribal recipient that was not included in our sample of transactions at the five largest
       recipients had a cash advance in the amount of $11,100 for a period of 17 months in
       violation of Federal regulations related to disbursement of cash advances.

We did not identify any questioned costs for sample transactions we reviewed at the Cherokee
Nation, Muscogee Creek Nation, and Chickasaw Nation.

The majority of questioned costs occurred because NTUA failed to follow its own policies and
procedures related to procurement of services, to adequately review legal expenditures charged
to the grant prior to seeking reimbursement, and to adhere to Federal regulations requiring the
adequate support of allowable administrative charges. NTUA also misinterpreted EECBG
Program guidance regarding the allocation of administrative costs. The Choctaw Nation of
Oklahoma's duplicate reimbursement request resulted from the tribe not adequately reviewing
charges to the grant prior to seeking reimbursement from the Department. The unliquidated cash
advance resulted from the tribe drawing in excess of its immediate cash needs and the
Department's failure to take corrective action.

QUESTIONED COSTS DETAILS

We identified $518,994 in questioned costs reimbursed by the Department to two of the five
largest tribal recipients of EECBG funds included in our review. Specifically, we questioned
$517,794 of costs reimbursed to the NTUA for consulting, legal and administrative fees because
NTUA had not followed applicable Federal regulations or did not have adequate documentation
supporting that the costs were allowable or allocable to the grant. Additionally, we questioned
$1,200 of costs reimbursed to the Choctaw Nation of Oklahoma for a duplicative travel
reimbursement; a problem that was resolved shortly after we brought the matter to the tribe's
attention.

                                   NTUA Consulting Services

NTUA did not follow Federal requirements for full and open competition in the procurement of
consulting services; therefore, we questioned approximately $122,364 of NTUA's consulting
fees. The consultants were hired to develop and formalize a comprehensive energy strategy for
the Navajo Nation. However, NTUA could not provide documentation supporting the

                                                 2
procurement process used to retain the consultants. An NTUA official told us that the
consultants were hired without a competitive solicitation and without following NTUA's normal
procurement process.

The grant's special terms and conditions required NTUA to follow Federal regulations regarding
the procurement of goods and services. The Department's Financial Assistance Regulations,
10 CFR 600.236, require a grant recipient to use full and open competition for all procurement
transactions, unless competition is infeasible. Further, grantees are required to maintain
sufficient records to detail the significant history of procurements. These records should include,
but are not limited to, rationale for the method of procurement, selection of contract type,
contractor selection or rejection, and the basis for the contract price.

While NTUA's procurement procedures reflected applicable Federal regulations including those
related to full and open competition, NTUA officials told us they did not follow them. Rather,
the consultants were hired based on a recommendation by the Navajo Nation Division of Natural
Resources. An NTUA official stated that NTUA had been directed by Navajo tribal officials to
coordinate the project with the Division of Natural Resources because it had initiated a similar
project. In the absence of documentation supporting the justification for procurement of
consulting services without open and full competition, the Department lacked assurance that the
associated costs represented the best use of taxpayer funds.

                                       NTUA Legal Costs

NTUA had identified, but had not taken action to reverse charges for legal costs that were
unrelated to its grant; therefore, we questioned $77,090 in NTUA legal costs, $31,706 of which
were included in our transaction sample. NTUA officials could not provide adequate
documentation to reconcile the amount of legal costs that were allocable to the EECBG Program.
A law firm was hired to provide legal services for EECBG-related activities as well as other non-
EECBG activities, including renewable energy projects and other Recovery Act grants. After
discovering charging anomalies during our test work, we learned that numerous invoices were
paid over a 1-year period to the law firm and that an NTUA accountant had identified costs
associated with other activities that were erroneously charged to the grant. The accountant
attempted to reconcile the amount that should have been allocable to EECBG; however, at the
time of our site visit, the analysis was not completed and adjustments had not been made to the
grant. Subsequently, the NTUA EECBG program manager told us the analysis had been
completed. However, despite several requests, NTUA had not provided the analysis or
evidence of adjustments to the grant. Accordingly, we questioned the entire $77,090 in legal
costs claimed by the recipient and reimbursed by the Department.

                                  NTUA Administrative Costs

NTUA was unable to substantiate that its administrative costs were reasonably allocated to the
EECBG grant. Therefore, we question $318,340 in administrative costs charged to the grant, of
which $27,489 was included in our transaction sample. OMB Circular A-87 notes costs must be
adequately documented to be allowable under Federal awards. Further, it requires recipients to
prepare and retain a proposal and related documentation in support of administrative costs
charged to a Federal award. The EECBG Program guidance also allowed grant recipients to use

                                                3
up to 10 percent of their award for administrative costs. NTUA incorrectly interpreted the
EECBG Program guidance to mean it could apply a flat 10 percent rate to its direct costs. As
such, and consistent with its incorrect application of the guidance, NTUA was unable to provide
documentation related to actual administrative costs allocable to the grant. A Department
official stated that the EECBG Program planned to limit the administrative costs to
approximately $265,000. This will require NTUA to adjust its budgets and financial reports to
reflect this amount since NTUA had claimed approximately $53,000 of additional administrative
costs. We continue to question the $318,340 until NTUA has made the proper adjustments and
the Department has reviewed and approved these adjustments.

                                   Unliquidated Cash Advance

During the course of our review, we also noted that one tribal recipient, not included in our
sample of transactions at the five largest recipients, had a cash advance in the amount of $11,100
for a period of 17 months in violation of Federal regulations related to disbursement of cash
advances.

Federal regulations require grant recipients to minimize the time elapsed between the receipt of
funds and their disbursement. EECBG Program Guidance 10-013 further clarifies that grant
recipients should not request funds unless they anticipate disbursing the funds within 30 calendar
days of receipt. While the recipient continuously disclosed the outstanding cash balance in its
required quarterly financial report to the Department, the Department project officer approved
the reports without inquiring about the cash balance and taking corrective action. Because the
advance was not disbursed in accordance with Federal regulations, we questioned the balance of
$11,100. In response to our January 2013 inquiry on the unliquidated advance, the Department
stated it would work with the recipient to recoup the funds. Further, Department officials stated
they were aware certain recipients had drawn and held funds in excess of their needs, and in
March 2013, issued EECBG Program Guidance 13-001 reemphasizing the need to adhere to
regulations regarding advances and remittance of interest earned, if applicable.

                     Weaknesses in Controls over Reimbursement Requests

The questioned costs we identified at NTUA were the result of its failure to follow its own
policies and procedures related to procurement of services, to adequately review legal
expenditures charged to the grant prior to seeking reimbursement, and to adhere to Federal
regulations requiring the adequate support of allowable administrative charges. As previously
noted, NTUA also misinterpreted EECBG Program guidance regarding the allocation of
administrative costs.

The Choctaw Nation of Oklahoma's duplicate reimbursement request occurred because the tribe
did not adequately review charges to the grant prior to seeking reimbursement from the
Department.

                                Questioned Reimbursement Costs

As a result of these issues, we questioned approximately $518,994 in Recovery Act funds that
may have been used in a wasteful or inefficient manner, resulting in fewer funds available for

                                                4
eligible activities. Additionally, by not liquidating cash advances in a timely manner, the funds
were susceptible to being expended on unallowable costs and were at increased risk of fraud,
waste and abuse.

RECOMMENDATIONS

To address the issues identified during our review we recommend the Assistant Secretary for
Energy Efficiency and Renewable Energy:

    1. Direct the Contracting Officer to resolve identified questioned costs at NTUA; and

    2. Direct project officers to closely monitor cash advances to ensure that the funds are
       disbursed by recipients in a timely manner, in accordance with Federal regulations.

MANAGEMENT REACTION

The Department, the Choctaw Nation of Oklahoma, and the NTUA provided responses to our
audit report. These responses are included in Attachment 3. Choctaw Nation of Oklahoma
concurred with our finding and asserted it had taken corrective action.

NTUA officials provided a response that was in general disagreement with the findings in the
report. Specifically, they asserted infeasibility regarding the failure to follow Federal regulations
because the consultants were pre-selected by the Navajo Nation. In addition, with regard to
questioned legal expenses, officials noted they were transitioning NTUA's grant accounting
system and asserted the legal expenditures were accurate and properly allocated to the grant.
Finally, in addressing questioned administrative costs, NTUA officials noted that while they do
not have an approved indirect cost rate with the Department, they did conduct annual cost studies
of administrative and general expenditures which were capped at below 10 percent in accordance
with EECBG award terms.

Department officials concurred with the findings and recommendations and had been working
with the tribal recipients to ensure all corrective actions were implemented. For the NTUA
questioned costs, Department officials stated NTUA worked with the cognizant Project Officer
on the three cost categories. For the questioned consulting and legal costs, officials asserted
NTUA restored the questioned costs to the grant. In regards to the administrative expenses,
officials stated that NTUA had provided the Office of Inspector General with detailed
information to support those costs. The Department also stated that it would work with NTUA
to ensure that administrative costs are appropriately allocated through the end of the grant period.
In addition, Department officials noted that Project Officers were closely monitoring cash
advances to ensure they are timely disbursed in accordance with Federal regulations and are also
providing updated guidance to recipients. The Department recently issued Program Guidance
10-013 clarifying that recipients should request funds only when they anticipate disbursing them
within 30 days of receipt.

AUDITOR COMMENTS

The Department's corrective actions, planned and taken, are responsive to our recommendations.

                                                 5
Although NTUA officials asserted that the sole source procurement was out of their control, we
noted that the contractual agreements were between the NTUA and the consultants, and NTUA
paid them directly using grant funds. As such, NTUA had a responsibility to perform the due
diligence required by Federal regulations which should have included sole source justifications
for the procurements, if applicable. With regard to the questioned legal expenditures, NTUA
officials noted an accounting system change but did not correlate this to the legal expenses
questioned. As noted in our report, our review of the costs charged to the grant included
expenses unrelated to the grant. During the course of our audit, NTUA officials acknowledged
the discrepancy and stated their intent to perform a reconciliation of the costs. To date, the
reconciliation has not been provided to us. The Department noted in its response that NTUA
allocated the consulting and legal costs to a non-Recovery Act activity and the funds were
restored to the grant.

Concerning questioned administrative costs, NTUA officials confirmed they did not have an
approved indirect cost rate. We requested support for the administrative costs on multiple
occasions throughout the audit, and just prior to the issuance of the draft report, NTUA provided
information it asserted supported about $265,000 of the $318,340. Subsequent to the
management response, a Department official stated that the EECBG Program planned to limit the
administrative costs to approximately $265,000. We continue to question the costs until NTUA
has made the proper adjustments and the Department has reviewed and approved these
adjustments.

Attachments

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff




                                               6
                                                                                     Attachment 1
                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether costs incurred by selected tribal recipients
were reasonable, allocable and allowable in accordance with applicable laws, regulations and
Energy Efficiency and Conservation Block Grant (EECBG) Program guidance.

SCOPE

The audit was performed from November 2011 through May 2013. The scope of the audit was
limited to EECBG formula grants awarded to tribal recipients. We conducted work at the
Department of Energy's (Department) Energy Efficiency and Renewable Energy Tribal Energy
Program office located in Golden, Colorado, and at five tribes: Navajo Tribal Utility Authority
(NTUA), Cherokee Nation, Muscogee Creek Nation, Choctaw Nation of Oklahoma, and
Chickasaw Nation located in Arizona and Oklahoma.

METHODOLOGY

To accomplish the audit objective, we:

     •    Reviewed applicable laws, regulations and program guidance applicable to the
          EECBG Program.

     •    Interviewed key Department officials to discuss their responsibilities related to the
          oversight of EECBG tribal activities, including review and approval of
          reimbursements.

     •    Selected the five largest and high-risk tribal grant recipients, representing
          approximately 25 percent of the total EECBG funding provided to Native American
          tribes. Between January 2010 and December 2011, the Department disbursed $5.8
          million to these 5 recipients, consisting of 710 expenditures. We judgmentally
          selected 114 expenditures totaling $3.3 million, consisting of 30 judgmentally selected
          expenditures per recipient. For recipients with less than 30 expenditures, we selected
          all transactions. The characteristics used in selecting this sample included: (1)
          duplicate amounts; (2) variety of EECBG activities; (3) different cost categories
          (contractual, supplies, personnel); and (4) wide range of expenditure amounts. For
          NTUA, in some cases, these expenditures contained multiple cost items associated
          with various EECBG activities and projects, and as a result, our audit sample increased
          from 114 to 154 expenditures. Our testing at the entities we reviewed identified 23
          questionable transactions totaling $182,759. These transactions included $181,559 in
          reimbursements to NTUA for consulting, legal and administrative fees as well as the
          $1,200 duplicate travel payment to the Choctaw Nation of Oklahoma. Because we did
          not use a statistical sample, we could not project to the population; however, after
          identifying questionable NTUA reimbursements, we expanded our work at that tribal
          recipient and identified an additional $336,235 in questioned costs associated with
          legal and administrative fees.

                                                 7
                                                                      Attachment 1 (continued)

     •    Conducted field site visits to the five tribal recipients where we interviewed key
          personnel, reviewed and analyzed supporting documentation, including invoices,
          general ledgers, and requests for payment, for the sample of reimbursed expenditures,
          and confirmed existence of selected physical assets purchased with EECBG funds.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, the audit included tests
of controls and compliance with laws and regulations to the extent necessary to satisfy the
objective. We considered the GPRA Modernization Act of 2010 as necessary to accomplish the
objective, and determined it was not applicable to our audit scope. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit. We conducted a limited reliability assessment of computer-
processed data and we deemed the data to be sufficiently reliable. We held exit conferences with
the Department and NTUA on July 9, 2013. The Choctaw Nation of Oklahoma waived the exit
conference.




                                               8
                                                                                    Attachment 2
                                      PRIOR REPORTS

Under the American Recovery and Reinvestment Act of 2009, the Office of Inspector General
has initiated a series of audits and examinations designed to evaluate the Department of Energy's
Energy Efficiency and Conservation Block Grant Program. Our series of reports include the
following:

   •   Audit Report on The Department of Energy's American Recovery and Reinvestment Act
       Energy Efficiency and Conservation Block Grant Program – State of Colorado and
       County of Boulder, Colorado (OAS-RA-13-16, March 2013).

   •   Examination Report on Connecticut Department of Energy and Environmental
       Protection − Energy Efficiency and Conservation Block Grant Program Funds Provided
       by the American Recovery and Reinvestment Act of 2009 (OAS-RA-13-14, February
       2013).

   •   Examination Report on Texas State Energy Conservation Office − Energy Efficiency and
       Conservation Block Grant Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-13-13, February 2013).

   •   Examination Report on City of Los Angeles-Energy Efficiency and Conservation Block
       Grant Program Funds Provided by the American Recovery and Reinvestment Act of 2009
       (OAS-RA-13-12, February 2013).

   •   Examination Report on North Carolina State Energy Office − Energy Efficiency and
       Conservation Block Grant Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-13-09, February 2013).

   •   Audit Report on The Department's Implementation of Financial Incentive Programs
       under the Energy Efficiency and Conservation Block Grant Program (OAS-RA-L-13-02,
       December 2012).

   •   Examination Report on The Department of Energy's American Recovery and
       Reinvestment Act Energy Efficiency and Conservation Block Grant Program – Efficiency
       Maine Trust (OAS-RA-13-04, November 2012).

   •   Examination Report on County of Los Angeles – Energy Efficiency and Conservation
       Block Grant Program Funds Provided by the American Recovery and Reinvestment Act
       of 2009 (OAS-RA-13-02, October 2012).

   •   Examination Report on California Energy Commission – Energy Efficiency and
       Conservation Block Grant Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-13-01, October 2012).




                                                9
                                                                  Attachment 2 (continued)

•   Audit Report on The Department of Energy's Energy Efficiency and Conservation Block
    Grant Program Funded under the American Recovery and Reinvestment Act for the City
    of Philadelphia (OAS-RA-12-09, April 2012).

•   Special Report on Lessons Learned/Best Practices during the Department of Energy's
    Implementation of the American Recovery and Reinvestment Act of 2009
    (OAS-RA-12-03, January 2012).

•   Audit Report on The State of Nevada's Implementation of the Energy Efficiency and
    Conservation Block Grant Program (OAS-RA-12-02, November 2011).

•   Audit Report on The Department of Energy's Energy Efficiency and Conservation Block
    Grant Program Funded under the American Recovery And Reinvestment Act for the State
    of Pennsylvania (OAS-RA-L-11-11, September 2011).

•   Management Alert on The Status of Energy Efficiency and Conservation Block Grant
    Recipients' Obligations (OAS-RA-11-16, September 2011).

•   Audit Report on The Department of Energy's Implementation of the Energy Efficiency
    and Conservation Block Grant Program under the Recovery and Reinvestment Act: A
    Status Report (OAS-RA-10-16, August 2010).




                                          10
                      Attachment 3

MANAGEMENT COMMENTS




        11
     Attachment 3 (continued)




12
     Attachment 3 (continued)




13
     Attachment 3 (continued)




14
     Attachment 3 (continued)




15
     Attachment 3 (continued)




16
                                                                 IG Report No. OAS-RA-13-28


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page

                                        http://energy.gov/ig

   Your comments would be appreciated and can be provided on the Customer Response Form.
